UNITED STATES OF AMERICA
FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

 

Division of Marketing Practices

Laurie Meehan
Attorney

Direct Dial
202-326-3755

VIA FACSIMILE A J.S. MAIL

January 14, 1997

William T. Steele, Jr.
Family Funeral Services and
Casket Gallery

207 Burns Lane, S.E.
Winter Haven, FL 33884

Dear Mr. Steele:

Thank you for your letter of December 4, 1996. I apologize for any delay in responding.
In your letter, you request a staff opinion on whether it is a violation of the Funeral Rule for a
funeral director, in circumstances where a person or family purchases a casket from a third party
casket seller, to refuse to accept delivery of a casket sent directly from a casket manufacturer.

Under Section 453.4(b)(1) of the Funeral Rule, a funeral provider cannot condition the
furnishing of any funeral goods or services upon the purchase of any other funeral good or
service (except as required by law or otherwise permitted by the Rule). Ifa funeral home refuses
delivery of a casket in order to condition the furnishing of funeral arrangements upon the
purchase of a casket, it is in violation of Section 453.4 (b)(1). However, your letter fails to state
the alleged basis for the funeral home’s refusal to accept delivery of the casket. Note, though,
previous staff opinions state that unreasonable burdens placed on a consumer’s choice of casket
may be tantamount to a violation of Section 453.4(b)(1).

I hope that this information is helpful towards resolving your problem. In addition, I

have enclosed a. copy of the FTC publication Complying with the Funeral Rule to provide you
with assistance.
Please be advised that the views expressed in this letter are those of the FTC staff. They
have not been reviewed, approved or adopted by the Commission, and they are not binding upon
the Commission. However, they do reflect the opinions of those staff members charged with

enforcement of the Funeral Rule.

  

Funeral Rule Enforcement Staff

Enclosure
